          NATIONAL RAILROAD PASSENGER CORPORATION




         NATIONAL RAILROAD PASSENGER CORPORATION




BUDGET ESTIMATE:
FISCAL YEAR 2014
SUBMITTED FOR THE USE OF THE COMMITTEES ON APPROPRIATIONS,
US SENATE AND US HOUSE OF REPRESENTATIVES



                                                         April 10, 2013
This page intentionally left blank
                            TABLE OF CONTENTS


  INSPECTOR GENERAL’S OVERVIEW……….…………………….…1

  AUTHORITY………………………….…………………………………... 6

  MISSION, VISION, AND GUIDING PRINCIPLES……………….…… 6

  ORGANIZATION…………………………………….…………………... 7

  SUMMARY OF FISCAL YEAR 2014
  BUDGET REQUEST………………………………………..… ..……… .8

 KEY FOCUS AREAS FOR FISCAL YEAR 2014 OIG WORK… ……10

  BUDGET TABLES
         Budget Request by Source of Funds…………………….… …...14
         Budget Request by Object Classification………………….. ….. 15
         Personnel Resources………………………………………..… ....16



________________________________________________________________

For additional information or clarification regarding this budget estimate,
please contact:

Tom Howard, Deputy Inspector General

Amtrak OIG

10 G Street, N.E., 3W-300

Washington, DC 20002

Phone:                        202-906-4561

Email:                        Tom.Howard@amtrakoig.gov
          NATIONAL RAILROAD PASSENGER CORPORATION
                OFFICE OF INSPECTOR GENERAL

       FISCAL YEAR (FY) 2014 BUDGET REQUEST

Inspector General’s Overview

The Amtrak Office of Inspector General (OIG) is committed to carrying out its
mission under the Inspector General Act of 1978 (as amended) as a high-performing
OIG—delivering timely, high quality, and value-added work to help improve the
economy, efficiency, and effectiveness of Amtrak programs and operations. In so
doing, we exercise independent oversight of Amtrak—conducting audits,
inspections and evaluations, and investigative work—that provides Amtrak, its
customers, the public, and the Congress with unbiased assessments of Amtrak
programs and operations.

The OIG’s FY 2014 budget request is $25.3 million. Funding at this level will allow
us to identify new opportunities for Amtrak to save money and improve in key
focus areas; reduce fraud, waste, and abuse; and conduct follow-up work to help
Amtrak realize savings opportunities from our past recommendations.

We are committed to the highest standards of excellence in achieving our mission
and in being good stewards of our resources. The steps we have taken to increase
our skills, capabilities, and capacity, as well as our attention to key focus areas that
can have the largest positive impact on Amtrak’s operations, have led and will
continue to lead to significant improvements in Amtrak’s economy, efficiency, and
effectiveness.


Significant Accomplishments

We are charged with, among other things, ensuring that Amtrak spends its funds
wisely, receiving appropriate value for its expenditures. To carry out this charge,
our audit, and inspection and evaluation work has centered on eight key focus areas:
Amtrak governance, acquisition and procurement, information technology, train
operations and business management, human capital management, Recovery Act
activities, safety and security, and asset management. In FY 2012 we issued
19 reports and identified over $18 million in questioned and unsupported costs and
funds to be put to better use. The reports also included numerous recommendations
to improve Amtrak’s operating and program efficiency and effectiveness.
Our investigators secured 11 indictments, two convictions, and $110,799 in cost
savings and recoveries. Investigations opened 55 cases, closed 51 cases, processed
326 hotline complaints, and issued seven management information reports with
recommendations to improve Amtrak programs and operations.


The cumulative effect of our work has also yielded significant results. Examples of
our work include three reports that discussed issues surrounding on-time-
performance incentives paid by Amtrak to host railroads, over whose tracks Amtrak
trains run. Despite the submission of inaccurate invoices from the railroads,
weaknesses in Amtrak’s invoice-review process allowed invoices to be paid. Over
time, OIG has identified over $91.3 million in overpayments to host railroads. As a
result of our work, Amtrak has realized more than $38.4 million in savings from
settlements with host railroads. This amount includes over $19 million in cash or
credits and more than $19.4 million from a release of claims for on-time-performance
incentives. Additionally, Amtrak has the opportunity to recover over $23.8 million
in overpayments identified by our office in thirteen reports issued since August
2001.

Examples of our accomplishments during FY 2012 include:

 Testimony on Amtrak’s food and beverage program updated our June 2011 report
 with actions Amtrak is taking to address revenue losses due to control weaknesses
 that leave the company vulnerable to fraud, waste, and abuse. While OIG work on
 food and beverage program management is ongoing, preliminary observations
 show that fragmented management is hindering efforts to reduce losses and
 improve service. Issues include accountability and planning. We suggested that
 Amtrak manage its food and beverage service through one responsible office,
 charge a single official with reducing operating losses from the almost $85 million
 in FY 2011, and require that official to develop a specific 5-year plan for operating-
 loss reduction.
 We determined that Amtrak does not have a formal, coordinated, and systematic
 enterprise-wide framework for identifying, analyzing, and managing risk. In
 commenting on our report, the Chairman of the Board of Directors and the
 President and CEO stated that it is imperative that the Board discuss our
 recommendations with an answer to the time, resources, and priority needed to
 make a commitment. Once the Board has had an opportunity to understand the
 commitment this will take, guidance will be provided to management, and the
 company will provide the Office of Inspector General with more detailed
 information about Amtrak’s plan to implement enterprise risk management.

                                        2
• We reviewed Amtrak’s progress in implementing provisions of the Passenger Rail
  Investment and Improvement Act of 2008, and found that while headway has been
  made, five outstanding issues represent opportunities for significant savings. The
  most significant among these is the potential for savings totaling $400 million if the
  company’s debt portfolio is restructured.
• We identified over $14 million in funds that could be put to better use due to
  weaknesses in Amtrak’s invoice-review process.
• We found $2 million in unsupported costs involving contract modification charges
  for overhead billed by a construction company.
 We identified $1.2 million in questioned costs in American Recovery and
 Reinvestment Act (ARRA) invoice charges.
• In reviewing controls over the use of temporary management assignments (TMA),
  we determined that weak controls over the implementation of the TMA policy,
  coupled with inconsistent practices for paying back wages, may have serious
  financial consequences for Amtrak. If these weaknesses are not addressed, Amtrak
  may face additional financial consequences and pay inequity among employees in
  the future, when the current round of labor negotiations concludes.
  A report on mechanical maintenance discussed how improved practices resulting
  from an earlier OIG review have significantly enhanced the performance of
  Amtrak’s Acela equipment, and how such practices could benefit the performance
  of equipment maintenance throughout the company. One such tool embraced by
  Amtrak has been reliability-centered maintenance, which assesses whether
  objective evidence exists of the need for maintenance. More management
  accountability and technical support are also hallmarks of the Acela maintenance
  approach. We recommended that Amtrak utilize this approach in improving its
  entire fleet, and management has agreed to do so.
  OIG also reported on Amtrak’s experience in implementing its Strategic Asset
  Management program, which afforded many lessons about opportunities to
  improve the implementation of future information technology projects. The
  number, significance, cost, and time needed to address implementation issues all
  have been greater than anticipated. During our review, significant issues
  continued to surface, indicating a system not yet stable. As a result, the company
  was still dealing with adverse effects on business operations and financial
  performance some 9 months after deploying its asset management program.
  Primary causes included design and configuration shortfalls, insufficient
  requirements-gathering and testing, inadequate training, and an under-developed



                                        3
  user-support organization. We made several short- and long-term
  recommendations, all of which were agreed-to by management.
  Our investigators have continued to work with Amtrak management to address
  potential fraud activity in areas of importance to Amtrak, including claims, health
  care, procurement and contracting, and product substitution.
  We reported on overtime fraud and abuse by employees of Amtrak’s Mid-
  Atlantic Communications and Signals Department, finding that multiple
  employees defrauded Amtrak by being paid for hours not worked. Other serious
  abuses uncovered during this investigation included misuse of computer
  resources and a pervasive lack of supervision by responsible union and
  management officials. Amtrak agreed with all four of our recommendations.
  We also executed memorandums of understanding with the Amtrak Police
  Department and with several federal offices of Inspectors General to increase
  investigative effectiveness and efficiencies.

Significant Actions Taken to Strengthen OIG Operations

We have completed a comprehensive transformation effort that has positioned the
office to function as a mainstream OIG and ultimately achieve our goal of being a
model OIG. The improvements in operations flow largely from recommendations
made by the National Academy of Public Administration (NAPA) and other internal
reviews. The reviews provided a basis for developing specific prioritized action
plans to improve internal processes, policies, and management practices. Key
improvements include:

•We revised our Strategic Plan to clearly articulate our vision to operate as a model
 OIG and to establish goals, strategies, and performance indicators to achieve the
 vision and assess our progress. Our plan covers FYs 2013–2017 and supports
 Amtrak’s strategic plan, particularly its goal of attaining a standard of
 organizational excellence.
 As part of setting benchmarks for our new strategic goals, we surveyed over 50 of
 our stakeholders, including Amtrak Board members, Amtrak executives, and
 congressional committee staffs. Eighty-five percent of the stakeholder responses
 either agreed or strongly agreed that the OIG was adding value and working well
 with Amtrak management.
 A survey of staff satisfaction was undertaken with an 87-percent response. Over 80
 percent of respondents agreed or strongly agreed that we are effectively achieving


                                        4
           our workforce-related strategic goal, and 94 percent stated agreement or strong
           agreement that our work with Amtrak is independent and professional.
         • A customizable briefing was developed to help Amtrak executives and staff and
           outside stakeholders understand the OIG mission and operations, and fraud
           awareness briefings were delivered to over 450 Amtrak employees.
         • A five-step Audit and Inspections and Evaluations work planning process was
           developed and implemented.
        • Comprehensive training classes were conducted for the audit and
          inspection/evaluation staff on TeamMate,a 2011 revisions to the Yellow Book,
          working paper preparation, and cross-indexing for working papers and draft and
          final reports. TeamMate procedures and protocol documents were also completed
          and provided to the staff.
        • Policy changes were made to strengthen our work process for approving,
          distributing, and redacting reports.
        • The OIG independence team completed 17 action items that it had identified to
          improve our processes, policies, and management practices.

        In the Human Capital Management area, we

        • hired key staff for Audits, Inspections and Evaluations, Investigations, and
          Mission Support;
        • completed office renovations that provided improved work space for OIG staff;
          and
        • funded training classes for management and employee development and staff
          certifications.
         Results of recent peer reviews of the Audit and Investigative function validated that
         our processes are sound. OIG’s Office of Audits was the subject of a Council of the
         Inspectors General on Integrity and Efficiency (CIGIE) peer review during FY 2013
         by the Tennessee Valley Authority (TVA). TVA OIG determined the system of
         quality control for our audit function has been suitably designed and complied with
         to provide reasonable assurance of performing and reporting in conformity with
         applicable professional standards in all material respects. Accordingly, TVA OIG
         provided a “pass” rating, and no recommendations were made.



a   Providing a paperless strategy for managing audits, TeamMate is considered the industry standard in
    audit management software.

                                                      5
OIG’s Office of Investigations was also the subject of a peer review during this
reporting period by the Nuclear Regulatory Commission (NRC). The NRC OIG
concluded that the system of internal safeguards and management procedures for
the investigative function of the Amtrak OIG in effect for the year ending
February 28, 2013, is in compliance with the quality standards established by the
CIGIE and the Attorney General’s Guidelines. These safeguards and our procedures
provide reasonable assurance of conforming with professional standards in the
conduct of its investigations.

Our ability to complete work that we have underway in audit/inspection and
evaluation/investigations areas and to strengthen OIG operations—will be
determined in large part by the budget that we receive.


Authority
The Inspector General Act of 1978 (Public Law 95-452, 5 USC Appendix 3), as
amended in 1988 (P.L. 100-504), established the Office of Inspector General for
Amtrak to consolidate existing investigative and audit resources into an
independent organization headed by the Inspector General to promote economy,
efficiency, and effectiveness; and to detect and prevent fraud, waste, and abuse.
Subsequently, the Inspector General Reform Act of 2008 (P.L. 110-409) amended and
strengthened the authority of the Inspectors General.



Mission
To provide independent, objective oversight of Amtrak’s programs and operations
through audits, inspections, evaluations, and investigations focused on
recommending improvements to Amtrak’s economy, efficiency, and effectiveness;
preventing and detecting fraud, waste, and abuse; and providing Congress, Amtrak
management, and Amtrak’s Board of Directors with timely information about
problems and deficiencies relating to Amtrak’s programs and operations.



Vision

The Amtrak OIG will operate as a model OIG, generating objective and
sophisticated products that add value. Utilizing modern infrastructure and effective
support systems, and following efficient, disciplined processes that meet the


                                       6
standards of the accountability community, our diverse and talented team will work
professionally with, but independently from, Amtrak management.



Guiding Principles

Amtrak OIG’s guiding principles are important because they form the integrated
process to accomplish our mission and conduct day-to-day operations:

 High Quality, Relevance, and Timeliness—Provide valuable and timely service.
 Work products are high-quality, relevant, timely, add value, and are responsive to
 the needs of Amtrak and its stakeholders.

 Innovation—Be innovative, question existing procedures, and suggest
 improvements. New ideas and creativity are fundamental to continued growth,
 development, and problem-solving.

 Respecting and Developing People—Create an environment that supports
 gathering, sharing, and retaining knowledge; fosters treating everyone fairly and
 with mutual respect through words and actions; ensures professional growth; and
 values the diverse backgrounds, skills, and perspectives of employees.

 Professionalism—Be committed to our professional standards and foster
 relationships with stakeholders that rely on communication and cooperation.
 Relationships with program managers are based on a shared commitment to
 improving program operations and effectiveness.

 Independence and Objectivity—Be committed to carrying out our mission with
 objectivity and independence, both in appearance and fact.

 Customer Service—Strive to be aware of the needs of stakeholders and work with
 Amtrak’s President and CEO, the Board of Directors, and the Congress to improve
 program management.


Organization

The OIG headquarters is based in Washington, D.C., with field offices in Boston,
Chicago, Los Angeles, and Philadelphia.


                                       7
The Office of Audits conducts performance and financial audits across the spectrum
of Amtrak’s support and operational activities. It produces reports on those
activities aimed at improving Amtrak’s economy, efficiency, and effectiveness, while
seeking to detect and prevent fraud, waste, and abuse. The group conducts its work
in accordance with generally accepted government auditing standards.

The Office of Inspections and Evaluations (I&E), conducts evaluations of Amtrak
programs and operations to identify opportunities to improve cost efficiency and
effectiveness and the overall quality of service delivery throughout Amtrak.

The Office of Investigations (OI) pursues allegations of fraud, waste, abuse, and
misconduct that could affect Amtrak’s programs, operations, assets, and other
resources. Investigative findings are referred to the Department of Justice for
criminal prosecution or civil litigation, or to Amtrak management for administrative
action. The office develops recommendations to reduce Amtrak’s vulnerability to
criminal activity.


The General Counsel provides legal assistance and advice to OIG senior
management and supports audits, evaluations, special reviews, and investigations.
Counsel coordinates with outside attorneys, including local and federal agencies
and law enforcement attorneys, and appears in court on behalf of OIG and its
employees.

The Office of Mission Support provides financial management, procurement,
human capital management, administrative, information technology, and
communications expertise to support OIG.


Summary of Fiscal Year 2014 Budget Request

                                (dollars in millions)
                                             FY         FY          FY
                                           2012       2013        2014

       President's Request                 22.0        22.0        25.3

       Appropriation                       20.5        19.4        TBD




                                       8
For FY 2014, the Amtrak Office of Inspector General requests $25.3 million. This
level of funding will allow us to sustain the improvements made to become a
mainstream OIG and to continue to deliver high-quality work that identifies cost
savings for and improves Amtrak operations and programs. This budget includes
$144,000 for training requirements for the Inspector General’s office for FY 2014, and
$52,000 to support the Council of the Inspectors General on Integrity and Efficiency
(CIGIE).

In accordance with Public Law 110-409, the Inspector General Reform Act of 2008, the
Inspector General certifies that the $144,000 for staff training satisfies all known
training requirements for FY 2014.

The OIG's FY 2014 budget request is broken down as follows (rounded):

 $22.4 million will be dedicated to personnel and related costs.

 $1.6 million will be dedicated to operational and equipment expenses, including
 funding for office space, special equipment for criminal investigators, staff
 training, and information technology equipment and support services.

 $1.3 million will be dedicated to consultants and contracted services.

Funding of $25.3 million will allow us to support 99 FTEs and help ensure the OIG’s
effective oversight of Amtrak’s programs and operations. In particular, it would
allow us to fully implement a very successful forensic auditing effort, using data
analytics tools, that was initiated at the end of FY 2012. For example, initial efforts
have identified $3.5 million in duplicate payments to vendors and, in just a few
months Amtrak recovered over $1.5 million. We believe there are tremendous
potential cost savings and control improvement opportunities by fully
implementing the forensic auditing effort across Amtrak’s six key business areas,
which have costs and revenues valued collectively at over $7 billion per year.

In addition, H.R.152, the Hurricane Sandy Emergency Supplemental Appropriations
Act, provided Amtrak with $118 million in funding for necessary repairs related to
the consequences of Hurricane Sandy as well as Northeast Corridor infrastructure
recovery and resiliency. The FY 2014 budget request would also allow us to dedicate
resources to the oversight of Amtrak’s use of the supplemental funding.




                                        9
Key Focus Areas for FY 2014 OIG Work

During FY 2014 we will focus our audit, inspection and evaluation, and investigative
efforts in the areas discussed below, subject to available resources. Our overall goal
will be to identify ways to improve the economy, efficiency, and effectiveness of
Amtrak’s programs and operations, while detecting and preventing fraud, waste,
and abuse. Our work will build off of our FY 2013 Audit and Inspection and
Evaluation Plan for addressing the focus areas discussed below.
Governance

Over the past 10 years, the subject of corporate governance and risk management
has received increasing attention. Corporate governance is defined as a system of
management controls encompassing policies, processes, and people, which serves
the needs of shareholders and other stakeholders, by directing and controlling
management activities with good business savvy, objectivity, accountability, and
integrity. Effective risk management processes are essential to provide assurance
that management controls are in place and operating effectively and to help avoid
events that could prove catastrophic to an organization’s financial and operational
health.

During FY 2014 we will focus on assessing Amtrak’s progress in implementing its
strategic plan and our recommendation to establish a risk management framework
for the company. We will identify processes that have been established by Amtrak
management and the Board of Directors to monitor strategic initiatives and identify
and mitigate risks. We will also review the effectiveness and efficiency with which
these processes are being implemented. In addition, we will continue to oversee
Amtrak’s financial statement audit and review management controls in several
business areas, using modern data analytics techniques.


Acquisition and Procurement

Amtrak’s planned and reported expenditures in the areas of acquisition and
procurement represent a significant portion of the company’s budget each year.
Amtrak’s FY 2011 expenditures for fuel, power, and utilities totaled over
$337 million. Amtrak has ongoing and planned infrastructure and fleet investments
that total in the billions of dollars. OIG reviews in these areas provide opportunities
to improve resource utilization and reduce Amtrak’s reliance on federal subsidies.




                                        10
In FY 2014, our Audits group plans to conduct selected performance audits of
Amtrak’s acquisition and procurement policies, processes, and practices, to identify
systemic risks and make recommendations for improvement. Our efforts will
include pre- and/or post-award reviews of large contracts, with the goal of
identifying cost savings and determining whether costs are being properly
controlled, desired outcomes are being achieved, and appropriate oversight is
occurring. Further, we plan to review Amtrak’s use of strategic sourcing practices.


Information Technology

Passenger railroad businesses are labor- and capital-intensive. These businesses
increasingly rely on modern information technology (IT) to improve labor and asset
productivity and deliver safe and reliable customer service. Many of Amtrak’s
existing information systems and IT infrastructure in the areas of reservations and
ticketing, supply chain, and operations are outdated, inefficient, and increasingly
prone to failure. The increasing risk of failure in business-critical systems must be
addressed to ensure resilience and continuity of operations. At the same time,
addressing these issues will be costly.

During FY 2014 our work will focus on assessing the economy, efficiency, and
effectiveness of some of Amtrak’s key IT programs, such as the Centralized
Electrification and Traffic Control System, the eTicketing System, and/or the Next
Generation Reservation System.


Train Operations and Business Management

Amtrak operates over 300 daily trains on over 21,000 miles of rails. It serves 528
stations in 46 states, 3 Canadian provinces, and the District of Columbia. In 2011,
Amtrak transported more than 30 million intercity passengers. In addition to
evaluating Amtrak’s compliance with laws and federal regulations, we are
continually looking for opportunities for Amtrak to improve the effectiveness and
efficiency of its train operations and business management.

During FY 2014, our work will focus on Amtrak’s crew scheduling processes, its
ticket pricing and discount policies, and Amtrak’s high-speed rail plans for the
Northeast Corridor.




                                       11
Human Capital Management

Amtrak employs approximately 18,000 agreement-covered (union) employees and
approximately 3,000 non-agreement-covered (management) employees, located
throughout the United States. Amtrak faces many of the same challenges and
opportunities as do most other companies of its size in efficiently and effectively
managing this large, diverse workforce. Being a service organization and the only
intercity passenger rail operator in the United States, the effective development and
management of its talented employees are critical to its success. Our work will focus
on identifying opportunities for Amtrak to improve the efficiency and effectiveness
of its human capital management policies and practices.

During FY 2014, we plan to focus on areas related to Amtrak’s management of
overtime and employee absenteeism. In addition, as resources become available, we
are considering audits or evaluations of Amtrak’s health care programs, looking to
identify areas susceptible to fraud, waste, or abuse, and reviewing whether controls
are adequate to limit the risks.


Safety and Security

Since 2004, the need to protect rail infrastructure from terrorist attacks has been
critical because of the bombings of the Madrid and Mumbai rail systems. Since 2005,
the Department of Homeland Security Transit Security Grant Program has provided
more than $97 million in grant funding to Amtrak to protect critical infrastructure.
The Amtrak Police Department has used these funds for planning and assessments,
infrastructure protection, training, and public awareness and exercises. While most
of our work involves safety and security issues, we intend to focus on Amtrak’s use
of grant funds to improve security and the efficiency and effectiveness of Amtrak’s
specific safety and security initiatives, policies, and practices. During FY 2014 we
plan to continue to review the efficiency and effectiveness of selected security
improvement efforts.

Asset Management

Amtrak owns over 2,000 pieces of rail equipment, with a replacement value of over
$12 billion. In addition, Amtrak owns over 1,300 facilities, 1,186 bridges, 17 tunnels,
and over 600 miles of right-of-way, along with the associated signals, catenary, and
track, valued at over $17 billion. Optimizing the utilization of these assets will help
Amtrak achieve its corporate goals and improve the overall financial health of the

                                        12
company. Our work will focus on identifying opportunities for Amtrak to improve
the utilization and management of its physical assets.

During FY 2014, as resources become available, we plan to continue to examine the
management of Amtrak’s infrastructure assets in the Northeast Corridor, including
Amtrak’s plan for addressing the backlog of maintenance required, and its plans for
future capacity improvements.


Investigative Focus

In FY 2014, as resources permit, our investigators will continue using innovative and
proactive investigative tools such as digital forensics and data mining/data analysis
to detect and deter fraudulent activity, and make recommendations for management
efficiencies across the spectrum of Amtrak programs and operations.

Investigations will also seek to leverage technology to identify additional innovative
and proactive tools and continue to be reactive to hotline complaints and other
allegations of fraud waste and abuse.




                                       13
                        BUDGET REQUEST BY SOURCE OF FUNDS
                    NATIONAL RAILROAD PASSENGER CORPORATION
                           OFFICE OF INSPECTOR GENERAL




                                             APPROPRIATION
                                                 ($000)

                                                   FY 2012              FY 2013                     FY 2014
ACCOUNT NAME                                       ACTUAL           APPROPRIATION                  REQUEST

Salaries and Expenses                                20,500                 19,428                    25,300


                          FEDERAL RAILROAD ADMINISTRATION GRANTS
                                           ($000)

                                                       FY 2012                 FY 2013                    FY 2014
                                                       ACTUAL                ESTIMATE                 PROJECTION

Operations Granta                                           2,715                        -                          -


ARRA (Recovery Act)                                          921                     1,786                          -
Oversight Grantb




a
 Prior-year Federal Railroad Administration grant that expired on September 30, 2012.
b
 $5.0 million for American Recovery and Reinvestment Act (ARRA) oversight for FY 2009 through FY 2013. A total of
$2,293,000 was spent in FY 2009 through FY 2011.

                                                       14
                                          OBJECT CLASSIFICATION
                                NATIONAL RAILROAD PASSENGER CORPORATION
                                      OFFICE OF INSPECTOR GENERAL
                                          SALARIES AND EXPENSES
                                                  ($000)


           OMB ACCOUNT ID:
           575-00-2996                               FY 2012                       FY 2013                   FY 2014
                                                    ACTUALa                     ESTIMATEb                   REQUEST
           Personnel compensation:

11.1       Full-time permanent                           10,270                        10,037                       12,739

11.5       Other personnel compensation                         -                            -                           -

             Total Personnel
11.9         Compensation                                10,270                        10,037                       12,739

12.1       Personnel benefits                             6,663                         6,991                        9,670

21.0       Travel and transportation (persons)              343                           277                         308

22.0       Transportation (things)                              8                           7                           9

23.2       Rental payments to others                        463                           468                         468

           Communications, utilities, and
23.3       miscellaneous charges                            248                          208                          122

24.0       Printing and reproduction                            4                           0                           0

25.1       Advisory and assistance services               1,389                          702                         1,298

           Other services from nonfederal
25.2       sources                                           86                            67                         113

           Other purchases of goods and
25.3       services from government accounts                754                          448                          311

26.0       Supplies and materials                           148                          131                          161

31.0       Equipment                                        123                            92                         101

99.0         Subtotal, direct obligations                20,499                       19,428                        25,300

99.9         Total obligations                           20,499                       19,428                        25,300



       a
         Does not include a Federal Railroad Administration grant of $2.7 million from previous years, which was
       primarily spent on advisory, and assistance services and American Recovery and Reinvestment Act funding of
       $921,000 spent on personnel and benefits costs.
       b
         Does not include ARRA funding of $1.8 million spent on personnel and benefits costs.

                                                           15
       NATIONAL RAILROAD PASSENGER CORPORATION
              OFFICE OF INSPECTOR GENERAL
            PERSONNEL RESOURCES—SUMMARY
        AUTHORIZED FULL-TIME EQUIVALENTS (FTEs)




                        FY 2012   FY 2013    FY 2014
ACCOUNT NAME             Actual   Estimate   Request
Salaries and Expenses     82         80        99
ARRA Grant                 6          9         -
Total                     88         89        99




                            16
